               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03652-59




    Combined Assessment Program 

            Review of the 

     Lexington VA Medical Center 

         Lexington, Kentucky 





February 3, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                          CAP Review of the Lexington VA Medical Center, Lexington, KY



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 COC            coordination of care
                 CRC            Cardiopulmonary Resuscitation Committee
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Lexington VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MM             medication management
                 MSIT           Multidisciplinary Safety Inspection Team
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                    CAP Review of the Lexington VA Medical Center, Lexington, KY



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishment........................................................................................                    2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  MM ..........................................................................................................................    9

  COC........................................................................................................................     10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              26

  F. Report Distribution .............................................................................................            27

  G. Endnotes ...........................................................................................................         28





VA OIG Office of Healthcare Inspections
                                          CAP Review of the Lexington VA Medical Center, Lexington, KY



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
December 2, 2013.

Review Results: The review covered seven activities.                               We     made     no
recommendations in the following five activities:

 Medication Management

 Coordination of Care

 Nurse Staffing

 Pressure Ulcer Prevention and Management

 Community Living Center Resident Independence and Dignity

The facility’s reported accomplishment was increasing the availability and timeliness of
scanned documents in the electronic health record.

Recommendations: We made recommendations in the following two activities:
Quality Management: Ensure that all surgical deaths are reviewed by the facility’s
Surgical Committee and that the critical incident tracking and notification system’s
recipient list is current. Require the Transfusion and Tissue Review Committee member
from Anesthesia Service to consistently attend meetings. Ensure the Cardiopulmonary
Resuscitation Committee meets monthly and includes physician participation.

Environment of Care: Ensure that Environment of Care Committee minutes reflect
deficiencies identified on the locked mental health unit and that tracking data reflect risk
levels and tracking of actions to closure. Require that access to emergency exits at the
Cooper division is unrestricted. Secure chemicals stored on the hemodialysis unit.
Ensure Multidisciplinary Safety Inspection Team members and occasional locked
mental health unit workers receive required training. Routinely test all panic alarms on
the locked mental health unit, and properly secure all audiovisual equipment on the unit.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided




VA OIG Office of Healthcare Inspections                                                              i
                                          CAP Review of the Lexington VA Medical Center, Lexington, KY


acceptable improvement plans. (See Appendixes C and D, pages 20–25, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                              JOHN D. DAIGH, JR., MD. 

                                                            Assistant Inspector General for 

                                                               Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                              ii
                                          CAP Review of the Lexington VA Medical Center, Lexington, KY



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 MM

   	 COC

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through
December 2, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                             1
                                               CAP Review of the Lexington VA Medical Center, Lexington, KY


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Lexington VA Medical Center, Lexington, Kentucky, Report
No. 11-02078-290, September 27, 2011.)

During this review, we presented crime awareness briefings for 286 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
234 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                                Reported Accomplishment 

Increasing Availability of Scanned Documents
In June 2012, a Lean projecta was chartered to address the backlog of documents
pending scanning in the Health Benefits Center and to reduce the time for important
documents to be available for viewing in veterans’ EHRs. Barriers included lack of
equipment and limited staffing. Multi-functional devices (print, scan, copy, and fax)
were provided to each Health Benefits Advisor to scan documents on the spot.
Additionally, a temporary employee was converted to full-time to eliminate the existing
backlog. As a result, the facility was able to eliminate all backlog, reduce cycle times for
enrollments from 48 minutes to 32 minutes, and upload documents the same day.




a
    Lean is a problem solving approach of delivering more value with less waste.


VA OIG Office of Healthcare Inspections                                                                  2
                                              CAP Review of the Lexington VA Medical Center, Lexington, KY



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                      Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated, completed, and reported to the
       MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                 3
                                                CAP Review of the Lexington VA Medical Center, Lexington, KY


NM               Areas Reviewed (continued)                                   Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted:
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected           Several surgical deaths occurred from January
       requirements:                                      through July 2013:
        An interdisciplinary committee with               There was no evidence that any of the deaths
          appropriate leadership and clinical                were reviewed by the facility’s Surgical
          membership met monthly to review surgical          Committee.
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
 X     Critical incidents reporting processes were         The recipient list for the automatic e-mail
       appropriate.                                         notification was not current.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                   4
                                               CAP Review of the Lexington VA Medical Center, Lexington, KY


NM              Areas Reviewed (continued)                                   Findings
 X     The process to review blood/transfusions          Twelve months of Transfusion and Tissue
       usage met selected requirements:                  Review Committee meeting minutes reviewed:
        A committee with appropriate clinical            The clinical representative from Anesthesia
          membership met at least quarterly to review      Service attended only one of four meetings.
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
 X     The facility met any additional elements          Local policy on the CRC reviewed:
       required by VHA or local policy.                   In FY 2013, the CRC lacked physician
                                                           participation and did not consistently meet
                                                           monthly.

Recommendations

1. We recommended that processes be strengthened to ensure that all surgical deaths are
reviewed by the facility’s Surgical Committee.

2. We recommended that processes be strengthened to ensure that the critical incident
tracking and notification system’s recipient list is current.

3. We recommended that that processes be strengthened to ensure that the Transfusion and
Tissue Review Committee member from Anesthesia Service consistently attends meetings.

4. We recommended that that processes be strengthened to ensure that the CRC meets
monthly and includes physician participation.




VA OIG Office of Healthcare Inspections                                                                  5
                                              CAP Review of the Lexington VA Medical Center, Lexington, KY


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

At the Cooper division, we inspected the medical/surgical/telemetry, medical/surgical/palliative
care, surgical intensive care, hemodialysis, and locked MH units. We also inspected the
emergency department, the radiology area, and the chemotherapy and urology clinics. At the
Leestown division, we inspected the outpatient general medicine, podiatry, MH, substance
abuse, and women’s health clinics. We also inspected the radiology area and two CLC areas.
Additionally, we reviewed relevant documents, conversed with key employees and managers,
and reviewed 33 employee-training records (11 radiology employees, 11 acute MH unit
employees, 6 MSIT members, and 5 occasional acute MH unit employees). The table below
shows the areas reviewed for this topic. The areas marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM            Areas Reviewed for General EOC                                 Findings
 X     EOC Committee minutes reflected sufficient       Six months of EOC Committee meeting minutes
       detail regarding identified deficiencies,        reviewed:
       corrective actions taken, and tracking of         Minutes did not reflect discussion of
       corrective actions to closure.                      deficiencies identified on the locked MH unit.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
 X     Fire safety requirements were met.                Equipment obstructed two of the nine
                                                          emergency exits inspected at the Cooper
                                                          division.
 X     Environmental safety requirements were met.       Six carts on the hemodialysis unit had
                                                          unsecured dialysis chemicals.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.


VA OIG Office of Healthcare Inspections                                                                     6
                                                 CAP Review of the Lexington VA Medical Center, Lexington, KY


NM      Areas Reviewed for Radiology (continued)                               Findings
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
 X     Corrective actions were taken for                   MH Risk Assessment and Abatement Tracking
       environmental hazards identified during             data reviewed:
       inspections, and actions were tracked to             There was no documentation of risk levels
       closure.                                              and of tracking of actions to closure for five of
                                                             the nine environmental hazards identified on
                                                             the locked MH unit.




VA OIG Office of Healthcare Inspections                                                                          7
                                               CAP Review of the Lexington VA Medical Center, Lexington, KY


NM      Areas Reviewed for Acute MH (continued)                              Findings
 X     MH unit staff, MSIT members, and occasional       Four MSIT members and all five of the
       unit workers received training on how to           occasional MH unit workers had not
       identify and correct environmental hazards,        completed training on how to identify and
       content and proper use of the MH EOC               correct environmental hazards, proper use of
       Checklist, and VA’s National Center for            the MH EOC Checklist, and VA’s National
       Patient Safety study of suicide on psychiatric     Center for Patient Safety study of suicide on
       units.                                             psychiatric units.
 X     Locked MH units were in compliance with MH        There was no documentation of panic alarm
       EOC Checklist safety requirements or an            testing for the group room for the past
       abatement plan was in place.                       4 months.
                                                         In the recreational room, two sets of
                                                          audiovisual equipment were unsecured—one
                                                          on top of a rolling cart and the other on top of
                                                          a cabinet.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

5. We recommended that processes be strengthened to ensure that EOC Committee minutes
reflect deficiencies identified on the locked MH unit and that MH Risk Assessment and
Abatement Tracking data reflect risk levels and tracking of actions to closure for all identified
environmental hazards on the locked MH unit.

6. We recommended that processes be strengthened to ensure that access to emergency
exits at the Cooper division is unrestricted and that compliance be monitored.

7. We recommended that processes be strengthened to ensure that chemicals stored on the
hemodialysis unit are secured at all times and that compliance be monitored.

8. We recommended that processes be strengthened to ensure that all MSIT members and
occasional locked MH unit workers receive training on how to identify and correct environmental
hazards, proper use of the MH EOC Checklist, and VA’s National Center for Patient Safety
study of suicide on psychiatric units and that compliance be monitored.

9. We recommended that processes be strengthened to ensure that all panic alarms on the
locked MH unit are routinely tested and that compliance be monitored.

10. We recommended that processes be strengthened to ensure that all audiovisual equipment
on the locked MH unit is properly secured.




VA OIG Office of Healthcare Inspections                                                                      8
                                                CAP Review of the Lexington VA Medical Center, Lexington, KY


MM
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed                   with key managers and employees.
Additionally, we reviewed the EHRs of 33 randomly             selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the        areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The        facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                       Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   9
                                              CAP Review of the Lexington VA Medical Center, Lexington, KY


COC
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 32 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                     Areas Reviewed                                      Findings
      Patients’ post-discharge needs were identified,
      and discharge planning addressed the
      identified needs.
      Clinicians provided discharge instructions to
      patients and/or caregivers and validated their
      understanding.
      Patients received the ordered aftercare
      services and/or items within the
      ordered/expected timeframe.
      Patients’ and/or caregivers’ knowledge and
      learning abilities were assessed during the
      inpatient stay.
      The facility complied with any additional
      elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                10
                                                CAP Review of the Lexington VA Medical Center, Lexington, KY


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility and unit-based expert panel documents and 25 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 3 randomly selected units—acute medical/surgical unit 3 North, CLC unit 27-1, and MH
unit 4 South—for 50 randomly selected days between October 1, 2012, and
September 30, 2013. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                       Findings
       The facility either implemented or reassessed
       a nurse staffing methodology within the
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  11
                                               CAP Review of the Lexington VA Medical Center, Lexington, KY


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 30 EHRs of patients with pressure ulcers (10 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
10 patients with pressure ulcers at the time of our onsite visit), and 10 employee training
records. Additionally, we inspected three patient rooms. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                      Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an inter-professional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
       Staff were generally consistent in
       documenting location, stage, risk scale score,
       and date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, inter-professional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                 12
                                               CAP Review of the Lexington VA Medical Center, Lexington, KY


NM             Areas Reviewed (continued)                                   Findings
       The facility defined requirements for patient
       and caregiver pressure ulcer education, and
       education on pressure ulcer prevention and
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with additional elements
       required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 13
                                              CAP Review of the Lexington VA Medical Center, Lexington, KY


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 17 EHRs of residents (10 residents receiving restorative nursing services and
7 residents not receiving restorative nursing services but candidates for services). We also
observed two residents during two meal periods, reviewed 10 employee training/competency
records and other relevant documents, and conversed with key employees. The table below
shows the areas reviewed for this topic. Any items that did not apply to this facility are marked
NA. The facility generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                     Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.




VA OIG Office of Healthcare Inspections                                                                14
                                           CAP Review of the Lexington VA Medical Center, Lexington, KY


NM        Areas Reviewed for Assistive Eating                            Findings
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                             15
                                               CAP Review of the Lexington VA Medical Center, Lexington, KY
                                                                                               Appendix A


               Facility Profile (Lexington/596) FY 2014 through
                                 November 2013b
Type of Organization                                                                      Tertiary
Complexity Level                                                                          1c-High complexity
Affiliated/Non-Affiliated                                                                 Affiliated
Total Medical Care Budget in Millions (September 2013)                                    $294.3
Number of:
    Unique Patients                                                                      23,470
    Outpatient Visits                                                                    106,083
    Unique Employeesc                                                                    1,664
Type and Number of Operating Beds (November 2013):
    Hospital                                                                             108
    CLC                                                                                  61
    MH                                                                                   30
Average Daily Census (November 2013):
    Hospital                                                                             73
    CLC                                                                                  49
    MH                                                                                   27
Number of Community Based Outpatient Clinics                                              4
Location(s)/Station Number(s)                                                             Somerset/596GA
                                                                                          Morehead/596GB
                                                                                          Hazard/596GC
                                                                                          Berea/596GD
VISN Number                                                                               9




b
    All data is for FY 2014 through November 2013 except where noted. 

c
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                    16
                                                                     CAP Review of the Lexington VA Medical Center, Lexington, KY
                                                                                                                     Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)d




d
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                       17
                                                            CAP Review of the Lexington VA Medical Center, Lexington, KY



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                              18
                                                                                                            CAP Review of the Lexington VA Medical Center, Lexington, KY


                                                                         Metric Definitions
 Measure                       Definition                                                                               Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)        A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                  A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                               A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                     A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                              A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)           A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                            A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                        A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                   A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                     A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                           A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                     A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)        A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)                 A higher value is better than a lower value
 PSI                           Patient safety indicator                                                                 A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                         A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                           A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                  A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                     A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                    A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction                A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                   A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                  A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                      A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                           A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)               A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                               19
                                          CAP Review of the Lexington VA Medical Center, Lexington, KY
                                                                                          Appendix C
                               VISN Director Comments



               Department of
               Veterans Affairs                                      Memorandum


           Date:       January 13, 2014

          From:        Network Director (10N9), VA Mid South Healthcare Network

       Subject: 	 CAP Review of the Lexington VA Medical Center,
                  Lexington, KY

             To:       Director, Bay Pines Office of Healthcare Inspections (54SP)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. Attached please find VAMC Lexington’s response to the Office of
          Inspector General (OIG), Combined Assessment Program (CAP)
          conducted the week of December 2, 2013.

       2. I concur with the Medical Center Director’s comments and action plan.

       3. If you have any questions or need additional information, please
          contact Cynthia L. Johnson, VISN 9 Quality Management Officer, or
          Joseph Schoeck, Staff Assistant to the Network Director at
          615-695-2206.


           (original signed by:)
           John E. Patrick




VA OIG Office of Healthcare Inspections                                                            20
                                          CAP Review of the Lexington VA Medical Center, Lexington, KY
                                                                                          Appendix D
                             Facility Director Comments



               Department of
               Veterans Affairs                                      Memorandum


           Date:       January 9, 2014

          From:        Director, Lexington VA Medical Center (596/00)

       Subject:        CAP Review of the Lexington VA Medical Center,
                       Lexington, KY

             To:       Director, Mid South Healthcare Network (10N9)

       1. Thank you for the opportunity to review the OIG report. 	I concur with
          the findings and recommendations.

       2. Our responses to the report recommendations are attached. W	 e have
          already been actively working on improvements. We appreciate the
          perspective from the OIG evaluation and will take this opportunity to
          strengthen and improve our medical center processes.


           (original signed by:)
           Emma Metcalf, (SES), MSN, RN
           Director




VA OIG Office of Healthcare Inspections                                                            21
                                          CAP Review of the Lexington VA Medical Center, Lexington, KY


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended all that processes be strengthened to ensure
that surgical deaths are reviewed by the facility’s Surgical Committee.

Concur

Target date for completion: 3/31/2014

Facility response: The Facility Surgical Work Group has oversight for reviewing surgical
deaths monthly. Monthly mortalities reviews began in October 2013. Quality
Management will perform a monthly audit of the Facility Surgical Work Group minutes
until at least 90 percent compliance with surgical mortality review is sustained.

Recommendation 2. We recommended that processes be strengthened to ensure that
the critical incident tracking and notification system’s recipient list is current.

Concur

Target date for completion: 12/6/2013

Facility response: The Surgical Quality Nurse reviewed the Critical Incident Reporting
system recipient list and updated it to include current staff and appropriate back-ups for
each position. The Surgical Quality Nurse will validate the list for accuracy on a
quarterly basis when she retrieves the VASQIP Facility Report.

Recommendation 3. We recommended that that processes be strengthened to ensure
that the Transfusion and Tissue Review Committee member from Anesthesia Service
consistently attends meetings.

Concur

Target date for completion: 6/31/2014

Facility response: To ensure attendance of anesthesia service at the Transfusion and
Tissue Committee, a designated alternate has been assigned to the committee to cover
when the primary anesthesiologist cannot attend. The committee meeting time and
place will be placed on the Anesthesia OR Assignment schedule on the day of the
meeting so the OR team can plan for the committee member's absence from the OR.
The Anesthesiology Service Administrative Officer will alert the committee member the
day of the meeting as an additional reminder. Quality Management will perform an




VA OIG Office of Healthcare Inspections                                                            22
                                          CAP Review of the Lexington VA Medical Center, Lexington, KY


audit of the Transfusion and Tissue Committee minutes attendance record until at least
90 percent compliance with anesthesia service attendance is sustained.

Recommendation 4. We recommended that that processes be strengthened to ensure
that the CRC meets monthly and includes physician participation.

Concur

Target date for completion: 3/31/2014

Facility response: A new physician chair and two providers were appointed to the Code
Review Committee in July 2013. Quality Management will perform a monthly audit of
the Code Review Committee minutes and attendance record until at least 90 percent
compliance with meetings and physician attendance is sustained

Recommendation 5. We recommended that processes be strengthened to ensure that
EOC Committee minutes reflect deficiencies identified on the locked MH unit and that
MH Risk Assessment and Abatement Tracking data reflect risk levels and tracking of
actions to closure for all identified environmental hazards on the locked MH unit.

Concur

Target date for completion: 1/9/2014

Facility response: A Mental Health (MH) Representative was added to the Environment
of Care (EOC) Committee in January 2014. The Patient Safety Officer will report
monthly to EOC on the EOC deficiencies identified on the locked MH unit and on the
results of the every 6 month MH Risk Assessment and Abatement Tracking.

Recommendation 6. We recommended that processes be strengthened to ensure that
access to emergency exits at the Cooper division is unrestricted and that compliance be
monitored.

Concur

Target date for completion: 3/31/2014

Facility response: The equipment was moved immediately from the emergency exits.
Acceptable storage area for equipment was designated with caution tape and signage.
The staff was educated. The Nurse Manager will monitor and reported monthly to EOC
for 6 months.




VA OIG Office of Healthcare Inspections                                                            23
                                          CAP Review of the Lexington VA Medical Center, Lexington, KY


Recommendation 7. We recommended that processes be strengthened to ensure that
chemicals stored on the hemodialysis unit are secured at all times and that compliance
be monitored.

Concur

Target date for completion: 3/31/2014

Facility response: The chemicals stored in the hemodialysis unit have been removed
and secured. Only chemicals needed for treatment are brought to the treatment area.
A New Nurse’s station with lockable cabinets has been ordered and will be installed
within the next 90 days. The nurse manager will monitor and report monthly to the EOC
Committee until compliance is sustained.

Recommendation 8. We recommended that processes be strengthened to ensure that
all MSIT members and occasional locked MH unit workers receive training on how to
identify and correct environmental hazards, proper use of the MH EOC Checklist, and
VA’s National Center for Patient Safety study of suicide on psychiatric units and that
compliance be monitored.

Concur

Target date for completion: 2/13/2014

Facility response: The Multidisciplinary Safety Inspection Team (MSIT) members and
MH unit occasional workers supervisors were notified of MH EOC training requirements
on 12/4/13. Staff are to have training completed by 1/30/2013. The MH representative
is to report on training compliance to the EOC Committee.

Recommendation 9. We recommended that processes be strengthened to ensure that
all panic alarms on the locked MH unit are routinely tested and that compliance be
monitored.

Concur

Target date for completion: 1/9/2014

Facility response: All panic devices have been tested and are operational. Staff have
been educated on how to enter work order when a panic alarm is not functioning.
Police Service is reporting monthly to EOC on panic alarm testing; dysfunctional
devices and that work orders are entered.  




VA OIG Office of Healthcare Inspections                                                            24
                                          CAP Review of the Lexington VA Medical Center, Lexington, KY


Recommendation 10. We recommended that processes be strengthened to ensure
that all audiovisual equipment in the locked MH unit is properly secured.

Concur

Target date for completion: 2/13/2014

Facility response: The audiovisual cart was bolted to the floor and the equipment on the
cart was secured with metal straps that include tamper resistant screws. This was
completed on 12/6/2013. The MH EOC Survey was conducted on 1/8/14. Staff will be
educated on the MH EOC to ensure a safe environment.




VA OIG Office of Healthcare Inspections                                                            25
                                          CAP Review of the Lexington VA Medical Center, Lexington, KY
                                                                                          Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  David Griffith, RN, Team Leader
Contributors            Charles Cook, MHA
                        Darlene Conde-Nadeau, MSN, ARNP
                        Karen McGoff-Yost, MSW, LCSW
                        Alice Morales-Rullan, MSN, RN
                        Carol Torczon, MSN, ACNP
                        Brian Celatka, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jackelinne Melendez, MPA
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                            26
                                          CAP Review of the Lexington VA Medical Center, Lexington, KY
                                                                                          Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Mid South Healthcare Network (10N9)
Director, Lexington VA Medical Center (596/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Mitch McConnell, Rand Paul
U.S. House of Representatives: Andy Barr, S. Brett Guthrie, Harold Rogers


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                            27
                                               CAP Review of the Lexington VA Medical Center, Lexington, KY
                                                                                               Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                            28
                                               CAP Review of the Lexington VA Medical Center, Lexington, KY



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    29
